The Department has created a network of A/OPCs to manage the daily operation of the
travel card program. A/OPCs are responsible for setting up employee travel card accounts
and monitoring account activity and delinquencies. The majority of the A/OPCs are OASAM
employees, who perform the A/OPC responsibilities in addition to their regular duties.
OASAM handles the administrative aspects of the travel card program for VETS nationwide.
Currently there are eight A/OPC’s that administer the travel card program for VETS.

To determine whether the Department has adequate internal controls to effectively
implement all pertinent regulations, policies and procedures governing travel card use in
VETS, we examined the following:

   •   Citibank transaction data from April 1, 2000 to March 31, 2001
   •   Citibank delinquency data from April 1, 2000 to March 31, 2001
   •   GSA data on government-wide delinquency from April 2000 to March 2001.

In addition to looking at agency transaction and delinquency data, we interviewed DOL’s
Travel Card Coordinator and appropriate A/OPCs, as well as VETS management and staff.
We also reviewed pertinent federal laws and regulations, as well as DOL and Citibank
guidelines and training materials. We conducted this evaluation in accordance with the
Quality Standards for Inspections published by the President’s Council on Integrity and
Efficiency.

                                         FINDINGS

Finding A:    A/OPCs’ Review and Monitoring of VETS Travel Card Transactions is
              Inconsistent

A/OPCs provide an inadequate review of VETS travel card transactions to determine
possible misuse, as well as how to address possible misuse or delinquency once it is
identified. A/OPCs need additional guidance in these areas from OCFO/OASAM in order to
improve the thoroughness of the review and eliminate disparate treatment based on which
A/OPC reviews a VETS employee’s account.

During interviews with VETS regional directors and our analysis of the data, we found
discrepancies between each directors’ perception of the Travel Card Program and how it
actually operates. For example, we found that in each region, VETS directors were
unaware of the exact number of delinquent cardholders. Of the seven directors interviewed,
each director was unaware of the number of delinquencies or number of incidents of misuse
in their region, for the time period reviewed. This was due to 1) A/OPCs not consistently
reporting monthly information on travelers activities to the regional directors; 2) regional
directors not having access to tools that could apprise them of delinquencies or incidents of
possible misuse by agency cardholders; and, 3) regional directors not keeping records on
cardholders who were delinquent or had misused the travel card. As new initiatives and
corrective actions are implemented in OCFO/OASAM, VETS officials will have access to the
management tools necessary to identify and implement disciplinary actions as they relate to
delinquency and suspected misuse by cardholders.
We also found that VETS directors were unsure of the total number of travel cards issued to
their regional employees. In the past, OCFO/OASAM did not keep records of travel cards
within DOL by agency, due to the established hierarchy in the credit card database
maintained by Citibank. According to OCFO/OASAM, this issue has been resolved. The
ability to sort cardholders by agency will provide VETS with the capacity to periodically
obtain a current listing of travel card users. We strongly urge that VETS pursue this issue to
ensure that only authorized employees are issued the government travel card.

Finding B:    VETS Employees Are Not Receiving Adequate Information About the
              Travel Card Program

VETS management should work with OCFO/OASAM to ensure that their employees are
provided with adequate information regarding proper use of the travel card. Currently, we
found that insufficient information on the travel card program is reaching VETS employees.
Existing practice includes Citibank sending an employee a cardholder agreement with the
government travel card. Further, the Department distributes bi-annually a memo (Spotlight)
explaining proper employee conduct and responsibilities with regard to travel card use and
payment. We agree that the current process provides valuable information; however, we
believe that VETS employees need additional travel card information.

We have recommended to OCFO/OASAM that they develop additional materials such as
simple “Do’s and Don’ts” lists or “Frequently Asked Questions” to assist all employees.
VETS management should assist OCFO/OASAM in developing these additional
informational tools and ensure that they are provided to both new employees and existing
VETS cardholders as well. Travel card use and responsibilities should be included in VETS
current orientation and ethics training classes. While it is unlikely that delinquency or all
cases of misuse can be attributed to ignorance, better training could ensure that lack of
knowledge is not an issue.

VETS employees should be informed that their transactions are being reviewed and what
actions will be taken if they misuse their cards or are delinquent making payments.

FINDING C: VETS Management Does Not Have Sufficient Guidance On How To
           Apply Disciplinary Policies to Travel Card Misuse and Delinquency

VETS management should work with OCFO/OASAM to develop guidelines for managers on
how to apply the Standards of Ethical Conduct for Employees of the Executive Branch to
unauthorized use of the travel card and/or delinquency. Currently, there is inadequate
Departmental guidance for VETS program managers on how disciplinary policies apply to
these areas.

Once an A/OPC has identified a problem that needs to be referred to VETS, agency
management is responsible for taking appropriate corrective action. While A/OPCs can
cancel cards, this alone is not a deterrent to misuse and delinquency. Travel card misuse
and delinquency may be indications of larger employee problems and warrant referral to
agency management.




                                              2
As mentioned in Finding B above, regional directors did not adequately record disciplinary
actions against travel card abusers. Each regional director noted one case where an
employee excessively used the travel card for personal expenses. In those cases, the
employees made arrangements for full payment with the travel card company.

The regulations/policies of the travel card program provide the agency with the option of
canceling or suspending a travel card when instances of excessive delinquency or misuse
are documented. All the regional directors interviewed were unaware of these regulations
and did not use this provision to address travel card abuse. As new initiatives and
corrective actions are implemented by OCFO/OASAM to allow agencies to be fully aware of
their rights and responsibilities under the travel card program, regional directors will have a
clear policy to effectively implement disciplinary actions for travel card abusers.

                               _________________

We encourage VETS management to take an active role in working with OCFO/OASAM to
improve the travel card program and reduce travel card misuse and delinquency. We
understand that it will take OCFO/OASAM time to implement these various changes to the
administration of the travel card program; notwithstanding that, VETS should continue to
take a more proactive role in ensuring that VETS employees understand that misuse and
delinquency is taken seriously and that there are consequences for inappropriate actions.

We appreciate the time and cooperation we received from your staff during this review.
Please do not hesitate to address any questions regarding this report to Gregory Simmons,
Director, Division of Program Evaluations, at 202-693-5215.


cc:    Stanley Seidel




                                               3
